IMPORTANT CREDIT CARD DISCLOSURES
The following disclosure represents important details concerning your credit card. The information about costs of the card are
accurate as of March 1, 2019. You can contact us toll free at (800) 448-4096 or P.O. Drawer 8, Daleville, AL 36322 to inquire if
any changes occurred since the effective date.
INTEREST RATES and INTEREST CHARGES:
Platinum MasterCard and
Platinum EMV MasterCard

Platinum CU Rewards MasterCard

Annual Percentage Rate (APR)
for Purchases & Cash
Advances

9.99% to 18.00%

APR for Balance Transfers

9.99% to 18.00% depending on 11.99% to 18.00%

depending on your credit history.
your credit history.

11.99% to 18.00%

depending on your credit history.

depending on your credit history.

Penalty APR and When it
Applies

None

Paying Interest

Your due date is at least 21 days after we mail your billing statement. We will not
charge you interest on purchases if you pay your entire new purchase balance by the
due date each month. We will begin charging interest on cash advances and balance
transfers on the date the cash advance or balance transfer is posted to your account.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

FEES:
Fees to Open or Maintain your
Account
- Annual Fee:
- Application Fee:

None
None

Transaction Fees
- Balance Transfer:
- Cash Advance:
- Foreign Transaction:

None
3% of each advance transaction
1.10% of each transaction in U.S. dollars if the transaction involves a currency
conversion
1.10% of each transaction in U.S. dollars if the transaction does not involve a currency
conversion

Penalty Fees
- Late Payment:
- Over-the-Credit Limit:
- Returned Payment:

10% of amount past due, $15 minimum
None
Up to $25.00 if your payment is returned for any reason

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases).
Loss of Introductory Rate: We may end your Introductory Rate and apply the standard APR disclosed above if you make a late
payment.
page 1 of 4

IN THIS AGREEMENT, "YOU" AND "YOUR" MEAN ANY PERSON WHO ACCEPTS THIS AGREEMENT OR USES THE CARD. THE "CARD" MEANS ANY CREDIT CARD ISSUED TO YOU OR THOSE
DESIGNATED BY YOU UNDER THE TERMS OF THIS AGREEMENT. "WE", "US", "OUR" AND THE "CREDIT UNION" MEANS ALL IN CREDIT UNION OR ITS SUCCESSORS. BY USING YOUR CARD, YOU
AGREE TO ALL OF THE TERMS AND CONDITIONS SET FORTH HEREIN.

SECURITY: YOU SPECIFICALLY GRANT US A CONSENSUAL
SECURITY INTEREST IN ALL INDIVIDUAL AND JOINT ACCOUNTS
YOU HAVE WITH US NOW AND IN THE FUTURE TO SECURE
REPAYMENT OF CREDIT EXTENDED UNDER THIS AGREEMENT. YOU
ALSO AGREE THAT WE HAVE SIMILAR STATUTORY LIEN RIGHTS
UNDER STATE AND/OR FEDERAL LAW. THE GRANTING OF THIS
SECURITY INTEREST IS A CONDITION FOR THE ISSUANCE OF
CREDIT UNDER THIS AGREEMENT. IF YOU ARE IN DEFAULT, WE
CAN APPLY YOUR SHARES TO THE AMOUNT YOU OWE. Shares and
deposits in an Individual Retirement Account or any other account that
would lose special tax treatment under state or federal law if given are not
subject to this security interest.
If you have other loans with us, collateral securing such loans may also
secure your obligations under this Agreement, unless that other collateral
is your principal residence or non-purchase money household goods.

Others Using Your Account. If you allow anyone else to use your account,
you will be liable for all credit extended to such persons. You promise to pay
for all purchases and advances made by anyone you authorize to use your
account, whether or not you notify us that he or she will be using it. If
someone else is authorized to use your account and you want to end that
person's privilege, you must notify us in writing, and if he or she has a Card,
you must return that Card with your written notice for it to be effective.
Ownership of Card. Your Card remains our property and may be cancelled
by us at any time without notice. You agree to surrender your Card and to
discontinue use of the account immediately upon our request.
Interest Charges. You agree to pay interest at the rate(s) disclosed to you at
the time you open your account and as may be changed from time to time in
accordance with applicable law. Average Daily Balance including new
transactions: Interest Charges will accrue on your average daily balance
outstanding during the month. To get the average daily balance, we take the
beginning balance each day, add any new purchases, cash advances,
balance transfers or other advances, and subtract any payments, unpaid
interest charges, and unpaid late charges. This gives us the daily balance.
Then, we add up all the daily balances for the billing cycle and divide that by
the number of days in the billing cycle. We then multiply that by the periodic
rate corresponding to the Annual Percentage Rate on your account. If you
have different rates for purchases, cash advances or balance transfers,
separate average daily balances for each will be calculated and the
appropriate periodic rate is then applied to each.

Using Your Card. You can purchase or lease goods and services from any
merchant who honors your Card, and you may obtain cash advances from
financial institutions and ATM machines that accept the Card, up to your
maximum credit limit. You agree not to present your Card or obtain a cash
advance for any extension of credit in excess of your available credit limit;
however, if you do exceed your credit limit, you agree to make immediate
payment sufficient to bring the balance below the credit limit. Certain
purchases and cash advances require authorization prior to completion of the
transaction. In some cases, you may be asked to provide identification. If our Grace Period on Purchases Only: You can avoid Interest Charges on
system is not working, we may not be able to authorize a transaction, even purchases by paying the full amount of the new balance for purchases each
though you have sufficient credit available. Also, for security reasons, we may month by the date on which the payment is due. Otherwise, the new balance
block the use of your Card in certain countries or geographic areas. We will of your account, and subsequent advances from the date they are posted to
have no liability to you or others if any of these events occur.
the account, will be subject to an Interest Charge. You cannot avoid Interest
Personal Identification Number (PIN). We
may issue a Personal Charges on cash advances and balance transfers; even if you pay the entire
Identification Number (PIN) for use with your Card. This PIN is confidential cash advance balance or balance transfer balance by the payment due date,
and should not be disclosed to anyone. You may use your PIN and your Card you will incur the Interest Charges accrued from the date the cash advance or
to access your account, and all sums advanced will be added to your account balance transfer is posted to your account.
balance. In the event a use of your PIN constitutes an Electronic Funds Fees. In addition to the Interest Charges set forth above, you agree to also
Transfer, the terms and conditions of your Electronic Funds Transfer pay any and all fees that you incur as disclosed to you on your Truth-inAgreement may affect your rights.
Lending Statement or similar disclosures (as may be amended from time to
Promise To Pay. You promise to pay us in U.S. dollars for (a) all purchases,
cash advances, and balance transfers made by you or anyone whom you
authorize to use the Card; (b) all Interest Charges and all other charges or
fees; (c) collection costs and attorney's fees as permitted by applicable law,
and any costs incurred in the recovery of the Card; and (d) credit in excess of
your credit limit that we may extend to you.

Illegal Transactions. You agree that your Card and account will not be used
to make or facilitate any illegal transactions as determined by applicable law;
and that any such use will constitute an event of default under this Agreement.
We may decline any transaction that we believe to be illegal under applicable
law, including but not limited to any transaction involving or relating to any
gambling activity. You agree that we will have no liability or responsibility for
any such use by you or any authorized user(s); or for declining any such
transaction. You further agree to indemnify and hold us harmless from any
suits, liability, damages or adverse action of any kind that results directly or
indirectly from such illegal use. You promise to pay us any and all amounts
owing on your Card for any transactions made by you, even if the transaction
is determined to be illegal.

time), or as disclosed to you during the term of your Card.

If Your Card is Lost or Stolen or if an Unauthorized Use Occurs. You
agree to notify us immediately if your Card is ever lost or stolen or if an
unauthorized use may have occurred. "Unauthorized use" means the use of
the Card by someone other than you who does not have actual, implied or
apparent authority for such use, and from which you receive no benefit. The
telephone number to call is 1-800-449-7728. You agree to follow up your call
with notice in writing to us at: PO Box 31281, Tampa, FL 33631-3281. You
also agree to assist us in determining the facts, circumstances and other
pertinent information relating to any loss, theft or possible unauthorized use of
your Card and comply with such procedures as we may require in connection
with our investigation. You will have no liability for MasterCard transactions
not authorized by you, provided that you have exercised reasonable care in
safeguarding the Card from risk of loss or theft, and upon becoming aware of
such loss of theft, you promtly report the loss or theft to us.

Joint Accounts. Each of you will be responsible, jointly and severally, for the
repayment of amounts owed, regardless of who initiated any transaction
under the account.

page 2 of 4

IN THIS AGREEMENT, "YOU" AND "YOUR" MEAN ANY PERSON WHO ACCEPTS THIS AGREEMENT OR USES THE CARD. THE "CARD" MEANS ANY CREDIT CARD ISSUED TO YOU OR THOSE
DESIGNATED BY YOU UNDER THE TERMS OF THIS AGREEMENT. "WE", "US", "OUR" AND THE "CREDIT UNION" MEANS ALL IN CREDIT UNION OR ITS SUCCESSORS. BY USING YOUR CARD, YOU
AGREE TO ALL OF THE TERMS AND CONDITIONS SET FORTH HEREIN.

Minimum Payment Due; Crediting of Payments. Payments are due in the
amount and on the date disclosed on your billing statement. The minimum
payment is 3.00% of your total balance or $25.00, whichever is greater. If
your payment is received by us on a business day at the address and
by the time designated on the billing statement, it will be credited to your
account on the date of receipt. If payment is made at any location other
than the address designated on the periodic statement, credit for such
payment may be delayed up to five (5) days. Payments will be applied
in any order we determine, subject to applicable law.
Default; Acceleration; Credit Suspension; Collection Costs. You will be in
default if: (1) you fail to make any payment on time; (2) if you fail to keep any
promises you have made under this Agreement or under other Agreements
you have with us; (3) if you die; (4) if you file a petition in bankruptcy or have a
bankruptcy petition filed against you, or if you become involved in
any insolvency, receivership or custodial proceeding; (5) if anyone
attempts to take any of your funds held by us via legal process or if you have
a judgment or tax lien filed against you; (6) if you make any false,
inaccurate, or misleading statements in any credit application or credit update;
or (7) if we, in good faith, believe that your ability to repay what you owe is
or soon will be impaired, or that you are unwilling to make your payments.
If you are in default, we have the right to demand immediate payment of your
full account balance without giving you notice. If immediate payment
is demanded, you agree to continue paying interest charges and fees until
what you owe has been paid, and any shares that were given as security
for your account may be applied towards what you owe. You agree to
pay all reasonable costs of collection, including court costs and attorney's
fees, and any costs incurred in the recovery of the Card, subject to applicable
law. Even if your unpaid balance is less than your credit limit, you will
have no credit available during any time that any aspect of your account is in
default.
Additional Benefits/Card Enhancements. We may from time to time
offer additional services to your Account at no additional cost to you.
You understand that we are not obligated to offer such services and may
withdraw or change them at any time.
Convenience Checks. We may, at our discretion, issue checks to you which
may be used for any purpose other than making a payment for credit to your
account. By signing such check, you authorize us to pay the item for
the amount indicated and post such amount as a cash advance to your
account. We do not have to pay any item which would cause the
outstanding balance in your account to exceed your credit limit.
Credit Information. We may from time to time request personal
information from you or obtain credit reports from the credit reporting
agencies for the purpose of updating your credit status. Your failure to provide
such information when requested by us may result in suspension of credit
privileges under this Agreement, including your ability to obtain any future
advances by any means. You authorize us to investigate your credit
standing when opening or reviewing your account. You authorize us to
disclose information regarding your account to credit bureau and creditors
who inquire about your credit standing.
Foreign Transactions; Currency Conversion. Purchases
and cash
advances made in foreign currencies will be billed to you in U.S. dollars. The
conversion rate in dollars will be a rate selected by the card company from a
range of rates available in wholesale currency markets for the applicable
central processing date, which rate may vary from the rate the card company
itself receives, or the government-mandated rate in effect for the
applicable central processing date in each instance. All transactions
processed outside of the United States (which may include internet
transactions) will be charged a foreign transaction fee in the amount
disclosed on your Truth-in-Lending Statement (as amended from time to
time).

Termination; Change-in-Terms. We may, by written notice, terminate this
Agreement at any time, subject to applicable law. You may terminate this
Agreement by written notice. Termination by either party shall not affect your
obligation to repay any balance on your account resulting from use of the
Card as well as Interest Charges and fees incurred. We may change the
terms of this Agreement, including the method of calculating the periodic rate,
at any time, by written notice, subject to applicable law. Use of the Card
constitutes agreement and acceptance of any change in terms, unless
applicable law requires otherwise. Our failure to exercise any of our rights or
to take any action shall not constitute a waiver of those rights, or an
amendment or change in any of the terms of this Agreement.
Late or Partial Payments. Any payment that delays the reduction of your
balance will increase your total interest costs. Partial payments or
prepayments will not delay your next scheduled payment - you will still need
to make the minimum scheduled payment by the next scheduled due date to
keep your account current. We may accept late payments, partial payments,
checks or money orders marked "payment in full" and such action shall not
constitute final settlement of your account or a waiver or forgiveness of any
amounts owing under this Agreement.
Enforcement. We do not lose our rights under this or any related agreement
if we delay enforcing them. If any provision of this or any related agreement is
determined to be unenforceable or invalid, all other provisions remain in full
force and effect.
Returns and Adjustments. Merchants and others who honor the Card may
give credit for returns or adjustments, and they will do so by submitting a
credit slip which will be posted to your account. If your credits and payments
exceed what you owe us, the amount will be applied against future purchases
and cash advances. If the credit balance amount is $1 or more, it will be
refunded upon your written or verbal request.
Plan Merchant Disputes. We are not responsible for the refusal of any plan
merchant or financial institution to honor your Card. Also, we are not
responsible for goods or services that you purchase with the Card unless: (a)
your purchase was made in response to an advertisement we sent or
participated in sending you; or (b) your purchase cost more than $50 and was
made from a plan merchant in your state or within 100 miles of your home;
and only if you have made a good faith attempt, but have been unable to
obtain satisfaction from the plan merchant. You must resolve all other
disputes directly with the plan merchant. We do not warrant any merchandise
or services purchased by you with the Card.
Statements and Notices. Statements and notices will be mailed to you at the
most recent postal address or e-mail address (if you have elected to receive
such documents via electronic means) you have given us. Notice sent to any
one of you will be considered notice to all.
Notification of Address Change. You will notify us promptly if you change
your address for any reason. In order to prevent identity theft, your identity
may need to be verified before we act upon the notification.
Copy Received. You acknowledge that you have received a copy of this
Agreement.
Governing Law. This Agreement shall be construed under federal law and
state law in the state in which we are primarily located, and the venue shall be
located in the county and state in which we are primarily located. Operating
regulations of MasterCard may also apply. This Agreement is the contract that
applies to all transactions even though the sales, cash advance, convenience
check, credit or other slips you sign or receive may contain different terms.
NOTICE TO UTAH BORROWERS: This written agreement is a final
expression of the agreement between you and the Credit Union. This written
agreement may not be contradicted by evidence of any oral agreement.

page 3 of 4

YOUR BILLING RIGHTS - KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the
Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the address(es)
listed on your statement.
In your letter, give us the following information:
1. Your name and account number.
2. The dollar amount of the suspected error.
3. If you think there is an error on your bill, describe what you believe is
wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if
you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you
do, we are not required to investigate any potential errors and you may have
to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as
delinquent on that amount.
• The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible
for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount
in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is wrong, you must write
to us within 10 days telling us that you still refuse to pay. If you do so, we
cannot report you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when
the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50
of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with
your credit card, and you have tried in good faith to correct the problem with
the merchant, you may have the right not to pay the remaining amount due on
the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100
miles of your current mailing address, and the purchase price must have
been more than $50. (Note: Neither of these are necessary if your
purchase was based on an advertisement we mailed to you, or if we own
the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made
with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at the address(es) listed on your statement.
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay, we
may report you as delinquent.

page 4 of 4

